No. _______

In the
Supreme Court of the United States

Joaquin Hernandez-Ayala,
Petitioner,
v.
Rene Baker, Warden et al.,
Respondents.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Motion for Leave to Proceed In Forma Pauperis

Rene Valladares
Federal Public Defender,
District of Nevada
*Jonathan M. Kirshbaum
Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Jonathan_Kirshbaum@fd.org
*Counsel for Hernandez-Ayala

Petitioner Joaquin Hernandez-Ayala respectfully asks for leave to file the
attached petition for writ of certiorari without prepayment of costs and to proceed in
forma pauperis. Hernandez-Ayala was granted leave to so proceed in the United
States District Court. See Hernandez-Ayala v. Baker, No. 3:13-cv-00134-MMD-WGC,
ECF No. 4 (Dist. Nev. May 15, 2013). Counsel was appointed by the United States
District Court under 18 U.S.C. ยง 3006A(a)(2)(B). Id. Accordingly, no affidavit is
attached. See SUPREME COURT RULE 39.1.
Dated March 12, 2021
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
/s/Jonathan M. Kirshbaum
Jonathan M. Kirshbaum
Assistant Federal Public Defender

2

